OFFICE OF INSPECTOR GENERAL


AUDIT OF COMPLIANCE WITH
THE TIAHRT AMENDMENT
UNDER USAID/GUATEMALA’S
COOPERATIVE
AGREEMENTS WITH THE
FAMILY WELFARE
ASSOCIATION OF
GUATEMALA (APROFAM)
AUDIT REPORT NO.1-520-06-007-P
AUGUST 21, 2006




SAN SALVADOR, EL SALVADOR
                       Office of Inspector General




       August 21, 2006


       MEMORANDUM

       TO:                USAID/Guatemala Acting Director, Todd Amani
                          Regional Contracting Officer, Luis Garcia

       FROM:              Regional Inspector General/San Salvador, Timothy E. Cox “/s/”

       SUBJECT:           Audit   of    Compliance   with the   Tiahrt   Amendment     under
                          USAID/Guatemala’s Cooperative Agreements with the Family Welfare
                          Association of Guatemala (APROFAM) (Report No. 1-520-06-007-P)


       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in Appendix II of the report.

       The report includes six recommendations intended to help prevent future violations of
       the Tiahrt Amendment and better ensure that comprehensible information is given to
       clients considering voluntary sterilization. Based on your comments and documentation
       provided, final action has been taken on Recommendation Nos. 2, 3, and 5.
       Management decisions for Recommendation Nos. 1, 4, and 6 can be recorded when we
       have agreed with USAID/Guatemala on a firm plan of action, with target dates, for
       implementing the recommendations. In this regard, please advise us in writing, within 30
       days, of the actions planned to implement these recommendations. Determination of
       final action on the recommendations currently without final action will be made by the
       Audit, Performance, and Compliance Division (M/CFO/APC).

       Again, I want to express my appreciation for the cooperation and courtesy extended to
       my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

Did activities under USAID/Guatemala's cooperative agreements with APROFAM
comply with the Tiahrt Amendment? ................................................................................ 5

     Tiahrt Requirements Were Violated ............................................................................ 6

     Information Given to Sterilization Clients Should Be Improved................................. 10

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 16
SUMMARY OF RESULTS
The Regional Inspector General/San Salvador conducted this audit to determine if
activities under USAID/Guatemala’s Cooperative Agreements with APROFAM (la
Asociación Pro-Bienestar de la Familia de Guatemala or the Family Welfare Association
of Guatemala) complied with the Tiahrt Amendment. (See page 4.)

The Tiahrt Amendment’s provisions that are relevant to USAID/Guatemala and
APROFAM are that:

(1) Service providers or referral agents in the project shall not implement or be subject to
quotas, or other numerical targets, of total number of births, number of family planning
acceptors, or acceptors of a particular method of family planning (this provision shall not
be construed to include the use of quantitative estimates or indicators for budgeting and
planning purposes).

(2) The project shall not include payment of incentives, bribes, gratuities, or financial
reward to (A) an individual in exchange for becoming a family planning acceptor, or (B)
program personnel for achieving a numerical target or quota of total number of births,
number of family planning acceptors, or acceptors of a particular method of family
planning.

(3) The project shall not deny any right or benefit, including the right of access to
participate in any program of general welfare or the right of access to health care, as a
consequence of any individual's decision not to accept family planning services.

(4) The project shall provide family planning acceptors comprehensible information on
the health benefits and risks of the method chosen, including those conditions that might
render the use of the method inadvisable and those adverse side effects known to be
consequent to the use of the method. (See page 3.)

APROFAM did not comply with the first two Tiahrt Amendment restrictions described
above. From September 2002 through June 2005, APROFAM violated the Tiahrt
Amendment by establishing quotas for numbers of sterilizations and paying promoters in
its marketing department bonuses based on the number of sterilizations actually
performed. These quotas and bonuses were ended in July 2005, after they were
discovered by USAID/Guatemala in June 2005. None of the sterilization clients
interviewed indicated that they had been pressured to submit to sterilization, and none of
them expressed regret at having undergone the procedure. All of the sterilization clients
interviewed stated that they paid for the sterilization procedure, paid for their own
transportation to and from the operating site, and had not received any gifts or rewards
in return for undergoing sterilization. All of the clients stated that they had received
information on the risks and benefits of the sterilization procedure and all of them had
signed an informed consent form for the procedure. (See page 5.)

In addition to the Tiahrt Amendment violations described above, the audit also identified
opportunities to better ensure that individuals receive sufficient information to make an
informed decision. (See page 10.)




                                                                                          1
The audit report contains six recommendations to help prevent future violations of the
Tiahrt Amendment and better ensure that comprehensible information is given to clients
considering voluntary sterilization. (See pages 8 and 11.) USAID/Guatemala is in basic
agreement with these recommendations. Our evaluation of USAID/Guatemala’s comments
is provided after each finding and recommendation in the report, and USAID/Guatemala’s
comments in their entirety are included in Appendix II.




                                                                                    2
BACKGROUND
The Tiahrt Amendment (named after its author, Representative Todd Tiahrt of Kansas)
legislates specific requirements for international family planning service delivery projects
supported by USAID beginning in 1999. The amendment has consistently been
included in subsequent appropriations and is expected to remain a part of appropriation
law for the foreseeable future. The Tiahrt Amendment’s provisions that are relevant to
USAID/Guatemala and APROFAM (la Asociación Pro-Bienestar de la Familia de
Guatemala or the Family Welfare Association of Guatemala) require that:

(1) Service providers or referral agents in the project shall not implement or be subject to
quotas, or other numerical targets, of total number of births, number of family planning
acceptors, or acceptors of a particular method of family planning (this provision shall not
be construed to include the use of quantitative estimates or indicators for budgeting and
planning purposes).

(2) The project shall not include payment of incentives, bribes, gratuities, or financial
reward to (A) an individual in exchange for becoming a family planning acceptor, or (B)
program personnel for achieving a numerical target or quota of total number of births,
number of family planning acceptors, or acceptors of a particular method of family
planning.

(3) The project shall not deny any right or benefit, including the right of access to
participate in any program of general welfare or the right of access to health care, as a
consequence of any individual's decision not to accept family planning services.

(4) The project shall provide family planning acceptors comprehensible information on
the health benefits and risks of the method chosen, including those conditions that might
render the use of the method inadvisable and those adverse side effects known to be
consequent to the use of the method.

USAID is required to report violations to the Congress within 60 days after the
Administrator of USAID determines that a violation has occurred.

APROFAM is Guatemala’s largest non-governmental organization and provides family
planning information, products, and services to all 22 departments of Guatemala.
APROFAM provides family planning services to almost a third of the current family
planning users in Guatemala.

APROFAM has three major organizational components that promote and provide family
planning information, products and services: (1) Clinical Services, which includes a
network of 30 clinics as well as four mobile surgical units; (2) the Rural Development
Project, which includes about 60 educators and 3,200 rural promoters; and (3) the
Marketing Department, which includes 11 service promotion/referral agents and three
supervisors who work with the APROFAM mobile surgical units. APROFAM offers a
wide range of family planning methods including contraceptive pills, condoms, injectable
contraceptives, implants, intra-uterine devices (IUDs), and sterilization.




                                                                                          3
USAID/Guatemala has financed APROFAM for almost 40 years. Under a previous
cooperative agreement with APROFAM (1998-2005), USAID provided $20.1 million in
financing and family planning supplies to APROFAM. Under the current $9.5 million
cooperative agreement (2005-2009), USAID/Guatemala provides support to help
APROFAM provide a wide range of family planning and other reproductive health
services primarily, but not exclusively, to lower-income families in Guatemala. During
the period covered by this audit, September 2002 through May 2006, USAID spent $8.1
million for APROFAM activities.

AUDIT OBJECTIVE
The Office of Inspector General (OIG) was informed of possible violations of the Tiahrt
Amendment following discussions between the Global Health Bureau and
USAID/Guatemala concerning a planned OIG audit of the family planning program in
Guatemala. That audit focused on effectiveness and efficiency issues affecting the
family planning program and will be the subject of a separate report. This audit, focusing
on compliance with the Tiahrt Amendment, was designed to answer the following
question:

•   Did activities under USAID/Guatemala’s cooperative agreements with APROFAM
    comply with the Tiahrt Amendment?

Appendix I contains a discussion of the audit's scope and methodology, including a
significant limitation on the scope of the audit.




                                                                                        4
AUDIT FINDINGS
Did activities under USAID/Guatemala’s cooperative agreements
with APROFAM comply with the Tiahrt Amendment?
Activities under USAID/Guatemala’s cooperative agreements with APROFAM did not
comply with the Tiahrt Amendment. From September 2002 through June 2005,
APROFAM violated the Tiahrt Amendment by establishing quotas for numbers of
sterilizations and paying promoters in its marketing department bonuses based on the
number of sterilizations actually performed. This much is well established. However, we
received conflicting information on the details of how the quotas and bonuses worked.
While there were numerous inconsistencies between what we were told by APROFAM
officials and what supporting documents indicated, and between different supporting
documents, the weight of the evidence examined indicates that APROFAM:

(1)    Established quotas of 25, 37, or 45 sterilizations per month, depending on the
       timeframe, region, and number of promoters in each region, for promoters in its
       marketing department.

(2)    Paid the promoters a bonus of $344 (62 percent of their total monthly
       compensation of $553) if the specified numbers of sterilizations were performed.
       If the specified numbers of sterilizations were not performed, the promoters
       received a pro-rated bonus based on the number of sterilizations that were
       performed.

Based on interviews with 103 current sterilization clients, 96 former sterilization clients,
and 107 APROFAM staff, as well as a review of APROFAM records, we have concluded
that these quotas and bonuses were ended in July 2005, after USAID/Guatemala
discovered them and instructed APROFAM to end them in June 2005. During our audit,
we found no evidence that that would indicate that the other provisions of the Tiahrt
Amendment were violated. (These other provisions prohibit the payment of incentives or
financial rewards to family planning clients and the denial of rights or benefits to
individuals who decline to use family planning, and require that potential family planning
clients be given comprehensible information on the benefits and risks of the family
planning method chosen). None of the sterilization clients we interviewed provided
information indicating that they had been pressured to submit to sterilization, and none
of them expressed regret at having undergone the procedure. All of the sterilization
clients interviewed stated that they paid for the sterilization procedure, paid for their own
transportation to and from the operating site, and had not received any gifts or rewards
in return for undergoing sterilization. Most clients stated that they had received
information on the risks and benefits of the sterilization procedure and all of them had
signed an informed consent form for the procedure.

Based on visits to 9 of 30 APROFAM clinics and 7 sites where mobile surgical units
were performing sterilization procedures, as well as interviews with APROFAM staff as
mentioned in the previous paragraph, we concluded that APROFAM service providers
were knowledgeable about family planning and were experienced in providing
information comprehensible to potential family planning acceptors. Their knowledge




                                                                                           5
about family planning methods was accurate and included knowledge of the health
benefits, risks, and side effects of available family planning methods.

The Tiahrt violations that occurred from September 2002 through June 2005 are
discussed in the following section. The subsequent section does not deal with
compliance with the Tiahrt Amendment. Rather, it deals with opportunities for better
ensuring that family planning clients provide their informed consent, a principle that
underlies the Tiahrt Amendment and forms the basis for USAID support for any family
planning program.

Tiahrt Requirements Were Violated
Summary: The Tiahrt Amendment prohibits targets or quotas for service providers and
referral agents and prohibits the payment of incentives to program personnel based on
the number of family planning acceptors or the number of acceptors of a particular
method. APROFAM violated these provisions by establishing quotas and paying
bonuses to promoters in its marketing department based on the number of
sterilizations performed. USAID/Guatemala did not monitor compliance with the Tiahrt
Amendment, contributing to a weak control environment where violations could occur
and not be detected. As a result, the principles of voluntarism and informed consent
were compromised and $66,287 in USAID funds were used for an ineligible purpose:
that is, for payment of bonuses to APROFAM promoters based on the number of
sterilizations performed.

The specific requirements of the Tiahrt Amendment apply to projects that receive USAID
funds (money, technical assistance, or commodities) in support of family planning
service delivery projects. The provisions of the Tiahrt Amendment that were violated
require that in family planning projects:

•     Service providers and referral agents not implement or be subject to quotas relating
      to the number of births, the number of family planning acceptors, or the number of
      acceptors of a particular family planning method. (Quantitative estimates or
      indicators used for budgeting or for planning purposes are permissible.)

•     No incentives be offered to individuals in exchange for becoming acceptors of a
      particular family planning method or to program personnel1 for achieving targets or
      quotas related to the number of births, the number of family planning acceptors, or
      the number of acceptors of a particular family planning method.

These requirements were also incorporated into the cooperative agreements between
USAID/Guatemala and APROFAM in a standard provision entitled “Voluntary Population
Planning.”

During the period from September 2002 though June 2005, APROFAM violated these
requirements. The evidence we obtained from APROFAM indicates that health
promoters working for the marketing department received financial incentives or
1
    The term “program personnel” applies not only to service providers and referral agents, but also
    to persons who manage or perform other functions for an organization that implements a
    service delivery project.




                                                                                                  6
bonuses for achieving a monthly quota of 25, 37, or 45 sterilizations depending on the
region, the year, and the number of promoters working in each region. The promoters
received a bonus of $344 (62 percent of their total monthly compensation of $553) if they
achieved their quotas.2 Where the quotas were not met, the promoters received a pro-
rated bonus based on the number of sterilizations performed.3 As a result, the principles
of voluntarism and informed consent were compromised and a total of $66,287 in USAID
funds were used for an ineligible purpose: that is, to pay bonuses to APROFAM
promoters based on the number of sterilizations performed.

This situation came about because USAID/Guatemala did not monitor the APROFAM
family planning program for compliance with the Tiahrt Amendment.                Key
USAID/Guatemala staff told us that they were not familiar with Tiahrt Amendment
requirements, and APROFAM staff members that we interviewed had a low awareness
of specific Tiahrt requirements. USAID/Guatemala did not provide guidance or training
on a regular basis to APROFAM to ensure their compliance with the Tiahrt Amendment.
None of USAID/Guatemala’s trip reports contained evidence that USAID staff checked
for compliance with the Tiahrt Amendment, and USAID/Guatemala’s monitoring checklist
did not contain provisions for monitoring compliance with the Tiahrt Amendment.

In compliance with the terms of the cooperative agreements, annual financial audits of
APROFAM were conducted, and the external financial auditors were responsible for
identifying instances of non-compliance with the cooperative agreement terms or
applicable laws and regulations that could have a direct and material effect on
APROFAM’s fund accountability statement (a financial statement showing how USAID
funds were used). In the most recent audit that was completed, the auditors examined a
sample of payroll expenditures that contained several bonuses paid to promoters. The
auditors recognized that these bonuses represented potential non-compliance with the
cooperative agreement standard provision entitled “Voluntary Population Planning”
which incorporated the Tiahrt Amendment requirements. However, after discussing the
matter with a senior APROFAM official and reviewing documentation indicating that
clients were not being coerced by APROFAM, such as signed informed consent forms,
the auditors were persuaded that the bonuses were permitted under the terms of the
agreement. (Of course, this was an incorrect conclusion.) The “Voluntary Population
Planning” provision is twelve pages long, and many terms must be interpreted in a
precise manner in order to correctly interpret the provision. It is not entirely surprising
that a non-native English speaker without specialized experience in the family planning
field would have difficulty understanding the requirements, especially if he or she is not
already acquainted with the long history of the interaction between USAID and the
Congress on family planning issues. Still, the failure to recognize instances of non-
compliance greatly limits the usefulness of financial audits as an internal control. (It is


2
    Throughout this discussion paper we use an exchange rate of Q.7.62 to $1.00, the prevailing
    rate at the end of our audit in June 2006.
3
    During the earlier part of this period – e.g., in 2003 – the contracts with promoters indicated that
    the bonuses would be based on the number of sterilizations performed, the amount of
    medicines sold, and referrals to clinics for sterilizations, PAP smear tests, and other services.
    However, only the quota for sterilizations was quantified and only the number of actual
    sterilizations performed was taken into account in the payment of bonuses. That is, the amount
    of medicines sold and number of referrals for PAP smear tests and other services had no effect
    on the payment of the bonuses.




                                                                                                      7
important to acknowledge that RIG/San Salvador is responsible for the quality of audits
of USAID programs in the Latin America and the Caribbean region.)

The quotas and bonuses finally were discovered by USAID/Guatemala in June 2005,
when a USAID/Guatemala employee encountered an apparent double salary payment
for an APROFAM promoter during her review of Government of Guatemala tax
exemption forms submitted to the Mission by APROFAM. Upon further investigation,
USAID/Guatemala learned that the apparent double payment was actually two separate
payments, one for the fixed salary and the other one for a bonus to the promoter for
achieving sterilization targets.

Although USAID/Guatemala discovered the sterilization quotas and bonuses in June
2005, it did not report them to USAID/Washington, so that USAID could report the Tiahrt
violations to Congress in accordance with the law, until about seven months later.
Mission officials finally discussed the situation with USAID/Washington officials in
February 2006, during a phone call to discuss an upcoming OIG audit of
USAID/Guatemala’s family planning program. The reasons why the violations were not
reported in a timely fashion at a minimum include poor communication within the
Mission, a failure to document important findings and communications until well after the
fact, and, perhaps, a need for better training for Mission staff on compliance
requirements applicable to USAID family planning programs.

Although USAID/Guatemala and APROFAM have taken steps to address the reported
violations, have discontinued the sterilization quotas and bonuses, have provided
training on the Tiahrt Amendment, and have begun to address the monitoring
weaknesses described above, they have not completely corrected the weak control
environment. Therefore, to avoid any future violations with the Tiahrt Amendment we
are making the following recommendations:

   Recommendation No 1: We recommend that USAID/Guatemala arrange for
   training, at least annually, on family planning compliance requirements for its own
   staff and partners.

   Recommendation No 2: We recommend that USAID/Guatemala establish a plan
   to monitor Tiahrt vulnerabilities through regular site visits, using a checklist that
   includes detailed procedures for monitoring the policies and practices of
   APROFAM and other partners to ensure that incentives or financial rewards are
   not tied to the acceptance of family planning or any particular method of family
   planning.

   Recommendation No 3: We recommend that USAID/Guatemala require
   APROFAM to periodically report the details of its variable compensation plans for
   employees, including sufficient information to permit USAID/Guatemala to verify
   that APROFAM is in compliance with Tiahrt Amendment requirements.

   Recommendation 4: We recommend that USAID/Guatemala establish a process
   within the Mission for reporting any future non-compliance with Tiahrt
   Amendment requirements in a timely manner.




                                                                                           8
   Recommendation No 5: We recommend that USAID/Guatemala resolve the
   ineligible questioned costs of $66,287 and recover from APROFAM the amounts
   determined to be unallowable.

Evaluation of Management Comments – USAID/Guatemala stated that the Tiahrt
violations were not reported immediately because of a lack of awareness of the Tiahrt
provisions within both USAID/Guatemala and APROFAM. The Mission is in basic
agreement with the above recommendations.

With regard to Recommendation No. 1, USAID/Guatemala provided training to four
APROFAM staff members in June 2006 and has developed training materials and a plan
to provide additional training to its staff and partners during the rest of FY 2006.
APROFAM reportedly provided training on Tiahrt requirements to 96 of its employees,
but the APROFAM trainer herself had not received training on Tiahrt requirements.
During our audit, we found a low level of awareness of specific Tiahrt requirements, and
we believe that a more ambitious and far-reaching training program than the one
outlined by the Mission will be needed to overcome this problem. A management
decision for Recommendation No. 1 can be recorded when we agree with
USAID/Guatemala on a plan of action with timeframes for implementing the
recommendation.

With regard to Recommendation No 2, the Mission developed a monitoring plan and
checklists for monitoring Tiahrt compliance. Final action has been taken on this
recommendation.

USAID/Guatemala agreed with Recommendation No. 3 and has requested APROFAM
to regularly report on its variable compensation plans in its quarterly reports and to
report any changes to the compensation plan. The quarterly report for the period of April
to June 2006 produced by APROFAM incorporated this information. Final action has
been taken on this recommendation.

In commenting on Recommendation 4, USAID believed that the lack of awareness of
Tiahrt provisions, more than a lack of a process for reporting non-compliance, was the
reason why the Tiahrt violations were not reported in a timely manner. Nonetheless, the
Mission disseminated a flowchart that describes the necessary interaction between
implementing partners, the Mission, and USAID/Guatemala in the event of any future
violations. In fact, the flowchart describes the process that was eventually followed in
reporting the Tiahrt violations that are the subject of this audit report. However, the flow
chart does not include a timeframe for reporting violations or require that
communications be documented. Given the extreme sensitivity associated with Tiahrt
violations, and given that the Tiahrt violations discussed in this report were not reported
timely and that important communications were not documented, we believe that
USAID/Guatemala needs to explicitly address these requirements in its procedures. A
management decision can be recorded once we have agreed with the Mission on a firm
plan of action, with timeframes, for addressing this recommendation.

USAID/Guatemala agreed with Recommendation No. 5 and has provided documentation
that APROFAM has reimbursed USAID the amount of $66,287 of ineligible questioned
costs on August 8, 2006. Based on the supporting documentation provided, final action
has been taken on Recommendation No. 5.




                                                                                          9
Information Given to Sterilization
Clients Should Be Improved
    Summary: USAID policy requires that sterilization clients give their “informed consent”
    to the procedure: i.e., they must be informed in advance of the potential risks and
    benefits, the availability of alternative family planning methods, and so on. We
    observed opportunities to improve the quality and quantity of information given to
    clients by distributing standardized educational materials to APROFAM staff and
    requiring their use, providing information to clients in advance of the procedure, and
    providing information in writing. Logistical issues and high staff turnover within
    APROFAM mobile surgical units sometimes made it difficult to ensure that quality
    information was provided consistently to potential family planning clients. Taking
    advantage of these opportunities for improvement will better ensure that clients have a
    sufficient basis for giving their informed consent prior to the procedure.

USAID Policy Determination 3 provides that USAID funds can only be used to support
voluntary sterilization activities if the client has been advised of the surgical procedures
to be followed, the discomforts and possible risks, the benefits to be expected, the
availability of alternative methods of family planning, the purpose of the operation and its
irreversibility, and his or her option to withdraw consent anytime prior to the operation.
USAID missions are responsible for monitoring USAID-assisted voluntary sterilization
programs to ensure continuing adherence to the principle of informed consent. These
requirements go beyond the “comprehensible information” requirements of the Tiahrt
amendment that were outlined previously.

Based on observations at four APROFAM clinics and seven sites where mobile surgical
units were performing sterilizations, there are opportunities to better ensure that
individuals interested in sterilization procedures are given sufficient information to
support informed consent:

•     First, there was considerable variation in the quantity and quality of information given
      to clients. One doctor provided as much as 40 minutes of information using flip
      charts that illustrated the procedure while another doctor took as little as five minutes
      and provided less detailed information. Providing standardized flip charts, scripts,
      and/or checklists of topics to be covered would promote more uniformity in the
      information provided to potential sterilization acceptors.

•     Second, the timing of the communication with the clients on the procedure, risks,
      benefits, availability of alternative methods, and so on, is not ideal in most cases.
      Typically, the informational presentation by the doctor is given immediately prior to
      surgery when clients had been fasting and already changed into hospital gowns. In
      some cases patients appeared nervous or distracted and perhaps not in an ideal
      frame of mind to make an important, irreversible decision. In other cases, patients
      arrived late and missed the informational presentation entirely. We believe that the
      informational presentation to potential sterilization clients should be provided in
      sufficient time prior to the actual procedure being performed in order to better ensure
      that clients are providing informed consent.

•     Third, most clients had not been given any type of written information. (While many
      of APROFAM’s clients are not literate, many of them can find someone who can read




                                                                                            10
   them the information.) During visits to APROFAM clinics and sites where mobile
   surgical units were providing sterilization services, family planning brochures and
   written information about the operation were not being distributed prior to the
   operation. Although brochures on some contraceptive methods were available upon
   request at some of the clinics, there were no brochures at all on the benefits and
   risks of having an operation. No written information on the risks and benefits of the
   sterilization or post-operation self-care was provided at any of the seven mobile sites
   we attended and five of the eight fixed clinics visited. Only three clinics visited
   provided beneficiaries with one page of written instructions about post-operation self-
   care.

These opportunities for improving the “informed consent” information that APROFAM
provides to its clients arise because of logistical issues associated with the mobile
surgical units – an APROFAM employee would generally have to arrive on site a day
earlier, or schedule a separate visit, in order to provide “informed consent” information
prior to the day of surgery. Another factor is the high turnover of employees within
APROFAM’s mobile surgical units, coupled with the fact that APROFAM does not
provide standardized informational materials to the medical staff to share with clients.
Improving the quality of information provided to sterilization clients will better ensure that
the clients are making voluntary and fully informed decisions.

   Recommendation No. 6: We recommend that USAID/Guatemala obtain evidence
   that APROFAM has (a) provided a standardized checklist or script and visual
   materials for providing “informed consent” information to potential sterilization
   clients, (b) arranged for its staff to provide “informed consent” information to
   sterilization clients in sufficient time prior to the operation whenever practical, and
   (c) distributes appropriate written “informed consent” information to potential
   family planning clients.

Evaluation of Management Comments – USAID/Guatemala agreed with
Recommendation No. 6 and has provided us with documentation showing that
APROFAM has developed a checklist and an ”informed choice” brochure for providing
information to sterilization clients. The brochure includes comprehensive information on
all family planning methods. APROFAM also developed a hand-out for sterilization
clients that provides the clients with written information on important pre- and post-
surgery considerations. However, APROFAM has not developed or implemented a
process for distributing this information to potential sterilization clients.       Also,
USAID/Guatemala developed a questionnaire for conducting exit interviews with family
planning clients during monitoring visits, but the questionnaire does not include a
question to check that sterilization patients receive these brochures. A management
decision will be reached for Recommendation No. 6 when we agree with
USAID/Guatemala on a firm plan of action with timeframes for implementing the
recommendation.




                                                                                             11
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The audit was conducted by the Regional Inspector General/San Salvador in
accordance with generally accepted government auditing standards to determine
whether activities under USAID/Guatemala’s cooperative agreements with APROFAM
complied with the Tiahrt Amendment.

While we were able to answer the audit objective, and concluded that APROFAM’s
salary and bonus plan violated certain restrictions of the Tiahrt Amendment, the audit
was subject to a scope limitation in that we received conflicting information on the details
of the quota-based bonus system. For example, we identified numerous inconsistencies
between information provided by APROFAM officials and available supporting
documents concerning the levels at which quotas were established and the details of
bonuses paid to some individuals. In reporting on these details, we relied on the weight
of the evidence examined, even though there was some conflicting evidence.

In planning and performing the audit, we assessed the Mission’s controls related to
compliance with provisions of the Tiahrt Amendment. The management controls
identified included performance monitoring plans, the Mission’s Annual Reports, the
Mission’s data quality assessments, the Mission’s annual self-assessment of
management controls as required by the Federal Managers Financial Integrity Act,
reports on the cognizant technical officers’ field visits, program progress reports, and
day-to-day interaction with program implementers.

The audit was conducted at the offices of USAID/Guatemala, the offices of the Mission’s
implementers in Guatemala City, as well as at APROFAM facilities and Ministry of
Health (MOH) facilities throughout Guatemala from March 27 to June 9, 2006. The audit
covered the period from September 1, 2002 through May 26, 2006.

We judgmentally selected sites to visit, giving preference to communities in which higher
numbers of sterilizations were performed by APROFAM. Our site selection was also
designed to include a representative mix of urban and rural communities. In total, we
visited 11 of Guatemala’s 22 departments, covering 9 of APROFAM’s 30 fixed clinics
and 8 temporary sites where APROFAM’s mobile units had provided sterilization
services. The number of interviews conducted at each site visited is shown in Table 1
below.

Table 1. Interviews with Family Planning Clients

 Location (City, Department)                Current          Current            Past
                                          Sterilization   Clients Other     Sterilization
                                            Clients         Methods           Clients
 APROFAM Mobile Clinics                        72               0                42
   Santa Catarina Pinula, Santa Rosa            7              NA                 5
   Tierra Nueva II, Guatemala                  11              NA                 5
   Monterrico, Jutiapa                         10              NA                 5




                                                                                         12
                                                                                APPENDIX I

 Location (City, Department)                Current           Current           Past
                                          Sterilization    Clients Other    Sterilization
                                            Clients          Methods          Clients
   Retalhuleu, Retalhuleu                      18               NA                6
   Patulul, Suchitepequez                      14               NA                5
  Olintepeque, Quetzaltenango (These            2                0                0
  sterilizations were not funded by
  USAID.)
   Esquipulas, Chiquimula                      10               NA                  5
   La Gomera, Escuintla                        NA               NA                 11
 APROFAM Fixed Clinics                         31               30                 54
   Escuintla, Escuintla                        NA                3                  5
   Central, Guatemala                          NA               10                  0
   Retalhuleu, Retalhuleu                      NA                1                  8
   Huehuetenango, Huehuetenango                NA                5                  2
   Quetzalnenango, Quetzaltenango               6                5                  7
   San Pedro Sacatapequez, San                  6                0                 10
   Marcos
   Amatitlan, Guatemala                       13                0                  10
   Adolescentes, Guatemala                     6                0                   5
   Quiche, Quiche                             NA                 6                  7
 Total                                        103               30                 96

In the above table, “NA” indicates not applicable; that is, the service was not offered
during the day of our visit.

The 103 interviews with current sterilization clients represented 80 percent of the clients
receiving sterilization services on the days we visited the sterilization sites. The 96 past
sterilization clients visited represent 0.2 percent of the 45,574 clients who received
sterilization services from 2002 through 2005. We used a judgment sampling
methodology (rather than a random sampling methodology) because in our judgment it
offered the best tradeoff between reliability and cost.

Methodology
To answer the audit objectives, we visited 17 health care facilities, conducted interviews
with USAID officials, APROFAM personnel, and APROFAM clients, and reviewed
relevant documentation produced by APROFAM and USAID.

During the course of the audit, we interviewed 133 current family planning service
recipients, 96 past recipients, and personnel from all three organizational components
that provide family planning information, products, and services as shown in Table 2
below:

Table 2. Breakdown of APROFAM Personnel Interviewed by Program Component

         Program Component                    Total               Sample Interviewed
                                            Population
Institutional                             Not determined                   11
Clinical Services                         Not determined                   38




                                                                                         13
                                                                           APPENDIX I

       Program Component                     Total              Sample Interviewed
                                           Population
 Medical staff                           Not determined                 30
 Other                                   Not determined                  8
Marketing Department                            25                       19
 Supervisor                                     3                        3
 Sale promoter                                 11                        8
 Mobile Unit: Medical doctors                   3                        3
 Mobile Unit: Nurses                            8                        5
Rural Development Project                     3,244                      39
 Coordinators                                   4                        4
 Educators                                      56                       14
 Volunteer promoters                          3,184                     21
TOTAL                                    Not determined                 107

The audit team developed separate questionnaires for each category of person
interviewed in order to ensure consistency in the subjects covered. The questionnaires
were designed to determine if requirements of the Tiahrt were violated, if the clients’
decisions to undergo sterilization were voluntary, and if the clients gave their informed
consent before undergoing the sterilization procedure. We also assessed whether or not
APROFAM officials and service providers had received training and guidance on the
provisions of the Tiahrt Amendment.

In order to test different aspects of the Mission’s monitoring system, we interviewed
Mission cognizant technical officers and other responsible officials and reviewed relevant
documentation produced by USAID/Guatemala. The documentation included Mission
correspondence, an assessment of the reported Tiahrt violation, the Mission’s
Performance Monitoring Plan, Mission Annual Reports, and field visit reports.

With regard to APROFAM, we reviewed their cooperative agreements, work plans,
progress reports, training reports, and activity reports produced by APROFAM
promoters. We also reviewed APROFAM’s contracts with its staff involved with the
family planning program to determine if bonuses and targets were mentioned. We
verified the amount of bonuses paid during the period from September 2002 to mid-2005
by reviewing canceled checks and bonus computations for certain months for all
promoters and supervisors. At the visited sites, we reviewed consent forms to determine
if the forms had been completed and signed by the recipient. At the mobile and fixed
clinics where sterilizations were performed, we observed the interactions between
APROFAM staff and the client signing the consent form, and we listened to information
provided to patients as they were getting ready for the operation. We observed the
doctors providing explanatory information to the clients prior to the procedure. We also
observed the care and attention given to clients by APROFAM nurses and doctors after
the surgery.

Testing the collected data consisted of comparing reported information to supporting
documents such as schedules, field reports, doctor’s reports, income reports, and other
documents for selected months for selected activities. We selected months for review
judgmentally, trying to pick months where the promoters had not achieved their




                                                                                       14
                                                                           APPENDIX I

sterilization targets to validate the amount of bonus paid. We also traced the payment of
bonus reported to a cancelled check or source document.

Our audit team included a demographer with experience in implementing family planning
and public health activities.

In assessing compliance with the provisions of the Tiahrt Amendment, we considered
that a single violation of the Tiahrt Amendment would be significant and reportable.




                                                                                      15
                                                                             APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM

To:            Tim Cox, Regional Inspector General

From:          Todd Amani, Acting Mission Director, USAID/Guatemala

Subject:       Comments on the Draft Audit Report of a Tiahrt Violation

Date:          August 2, 2006

Thank you for the opportunity to review the formal draft copy of this Audit Report. We
appreciate the extensiveness and quality of the Audit you conducted on the Tiahrt
violation that was discovered in late June 2005 and immediately corrected by our staff.
The comprehensive nature of this audit gives us a high degree of confidence in your
basic findings.

General comments

In June 2005, the Mission instructed APROFAM to eliminate its use of salary
supplement incentives and marketing quotas that were not permitted by U.S. law. The
audit confirmed that such incentives had been used and contributed additional detailed
information about the scope and content of the bonuses. The large sample of
APROFAM clients that the RIG contacted and interviewed – 96 past sterilization clients
and 103 current sterilization clients in 9 of 30 APROFAM clinics and 7 additional sites
where mobile clinics were offering sterilization services, covering 9 of Guatemala’s 22
departments – is a strong foundation for determining whether the quotas and bonuses
resulted in a coercive environment or pressure to undergo sterilizations – which is the
underlying concern of the Tiahrt provisions.

The key findings addressing this question are that “none of the sterilization clients
interviewed indicated that they had been pressured to submit to sterilization, and none
expressed regret at having undergone the procedure” and that “All of the sterilization
clients interviewed stated that they paid for the sterilization procedure, paid for their own
transportation to and from the operating site, and had not received any gifts or rewards
in return for undergoing sterilization.” The audit also confirmed that “All of the clients
stated that they had received information on the risks and benefits of the sterilization
procedure and all of them had signed an informed consent form for the procedure”. We
note that our review of trends in use of family planning methods associated with
APROFAM’s mobile clinics do not show evidence of an increased level of sterilizations
due to the quotas and bonuses or a decrease when they were discontinued.

These findings clearly indicate that, notwithstanding that APROFAM established salary
supplement incentives and marketing quotas that are not permitted by U.S. law, the
basic principles of voluntary family planning and informed choice for APROFAM clients
were not compromised.




                                                                                          16
                                                                          APPENDIX II

Comments on specific findings and assertions

“Cause” of Tiahrt violation – We are convinced that the primary reason this violation
occurred and was not reported immediately was lack of awareness of the Tiahrt
provisions – both within APROFAM and our own staff. We believe that more frequent
training for USAID and APROFAM staff on these provisions would have prevented the
violation. Therefore we have focused attention on ensuring that APROFAM and USAID
staff are knowledgeable and aware of these requirements as well as on monitoring. As
currently stated, the cause of the Tiahrt violation was that USAID did not monitor the
APROFAM family planning program for compliance with the Tiahrt Amendment. In fact,
we relied heavily on the annual audits of APROFAM, managed by the RIG, for ensuring
partner compliance with all terms and conditions in our assistance instrument, including
the Tiahrt provisions. Nonetheless, we acknowledge that regular training in the Mission
and greater awareness of the Tiahrt provisions in our own staff could have led to
questions and discussion of these issues during routine monitoring efforts that may have
prevented or uncovered the violation earlier.

Correcting the violation – Your narrative summary of the events associated with our
discovery of the quota and bonus system that APROFAM established for its 11
marketing department promoters fails to mention that we immediately directed
APROFAM to stop this practice and that APROFAM complied as of July 2005 (though it
is implied in the Summary of Results on page 1). We therefore request that you correct
the text of the draft audit report to provide a more complete version of the actions that
were taken.

Comments on recommendations

We basically accept all of the recommendations and, based on actions already taken,
we hereby request that all of them be closed upon issuance of this Audit Report.
Documentation for each of the actions taken to implement the recommendations needed
to strengthen the control environment has been provided to the RIG and accompanies
this memorandum. Comments on each recommendation and the actions taken follow:

Recommendation 1 - Annual training for staff and partners on compliance: We see
this as the key recommendation addressing the factors that led to this violation, and we
have taken the following actions to implement it:

   •   USAID staff trained - All USAID staff responsible for managing, backstopping
       and overseeing family planning programs are now fully cognizant of U.S. family
       planning statutory and policy requirements and the need to strengthen
       understanding, training, and comprehensive monitoring regarding these
       requirements. Family planning compliance subject and working files have been
       established.

   •   Improved training materials developed – We have developed training
       materials in Spanish and English and provided training on U.S. family planning
       statutory and policy requirements for all relevant staff and partners. These
       materials will be used in yearly training of USAID/Guatemala and partner staff
       and will be updated as appropriate.




                                                                                      17
                                                                          APPENDIX II

    •   Work objectives focused on training and monitoring - All USAID staff that
        manage family planning programs now have work objectives or performance
        measures on compliance training and monitoring for Tiahrt and other key policy
        issues. Any new staff hired to work on family planning will also have work
        objectives or performance measures on compliance and monitoring for Tiahrt
        and other key policy issues.

    •   Compliance coordinator designated – We have appointed a Compliance
        Coordinator who is responsible for training staff and overseeing the monitoring
        and training plans.
.
    •   Written information provided to partners – We have sent to all partners the
        June 12, 2006 communiqué from the Bureau of Global Health regarding
        compliance with Family Planning Legislative and Policy Requirements:
        Performance-Based Financing Initiatives as well as other key documents
        explaining requirements

    •   Requirements for reporting on compliance established – We have added a
        specific reporting requirement in the APROFAM, URC, RTI and UNDP quarterly
        reporting requirements on compliance, training and monitoring; this requirement
        will be extended to all other partners as relevant.

    •   Regular reviews of compliance instituted - We have also added the
        requirement to review and report on compliance training and monitoring during
        annual portfolio reviews.

    •   Partners’ staff trained - APROFAM has replicated Tiahrt compliance training
        with its staff on three different dates and two training workshops have been held
        for the Ministry of Health and its NGO sub-grantees.

Recommendation 2 – Monitoring for compliance through regular site visits and
checklists: We acknowledge the Mission’s responsibility for monitoring that is
consistent with Agency guidance for monitoring assistance instruments and within the
established limits of “substantial involvement” in managing cooperative agreements. We
need to stress here that the annual audits managed by the RIG are also a critical
element in the compliance monitoring process and should provide USAID with
reasonable assurances that only eligible, supported costs are being claimed for
reimbursement.

This recommendation has been implemented through the following actions (please see
the attached documentation):

    •   Checklist developed – We have developed a Monitoring and Compliance
        Checklist that has been reviewed by USAID’s Bureau for Global Health and
        validated in the field.

    •   Monitoring plan developed and implemented – We have developed and have
        begun implementation of a Six-Month Site Visit Monitoring Plan (July –
        December 2006); subsequent six-month plans will be developed and
        implemented.




                                                                                      18
                                                                            APPENDIX II



   •   Field visits undertaken and monitoring reports completed - Our staff and
       partners have already started to monitor for compliance in their field visits and
       submitted monitoring reports. Monitoring files have been established.

   •   Compliance indicator developed and included in monitoring and evaluation
       plans – We have developed a Compliance Indicator and have requested that
       APROFAM and the other major partners include it in their own monitoring and
       evaluation plans. Partners will report compliance on this new indicator via the
       Quarterly Reports and Annual Report.

We trust that the RIG will correct the deficiencies in the annual audit process that failed
to identify the Tiahrt violation so that the full range of monitoring mechanisms are in
place and operating effectively.

Recommendation 3 – Require reporting on variable compensation plans: We sent
a letter to APROFAM requesting that they regularly incorporate the variable
compensation plan matrix into their quarterly report and report on changes.
APROFAM’s Quarterly Report for the period April-June, 2006 incorporates these two
requirements. Through this procedure, any changes in the compensation plan for
employees are reported and USAID staff can review, on a quarterly basis, their current
compensation plan to ensure that APROFAM is in compliance with the Tiahrt
Amendment. Information will be reviewed by USAID and verified during the annual audit
of APROFAM.

Recommendation 4 – Establish a process for reporting non-compliance: Though
lack of awareness of the provision and its reporting requirements, more than lack of a
process, was the reason this violation was not reported immediately, we have
implemented this recommendation. A schematic for staff training was developed and
disseminated that outlines steps for timely reporting of any future vulnerabilities. This
flowchart was reviewed by USAID’s Bureau for Global Health. In addition, in our
compliance training materials, we have indicated the steps partners and staff should
take if they have questions, concerns, or evidence of non-compliance with the
requirements.

Recommendation 5 – Recover unallowable costs: A letter of collection signed by the
Regional Agreement Officer was hand delivered to APROFAM Senior Management for
payment of U.S. $66,287 in costs disallowed under the program. APROFAM’s
Executive Director has submitted a check to the Regional Agreement Officer for this
amount.

Recommendation 6 – Develop standardized informed consent materials and
protocols: Though the audit findings indicate that “All of the clients stated that they had
received information on the risks and benefits of the sterilization procedure and all of
them had signed an informed consent form for the procedure,” we agree that greater
consistency in providing this information is necessary and that the information should be
as clear as possible, accurate, and consistent with Guatemalan government norms,
APROFAM policy, and U.S. requirements.

To improve its service and the information that all family planning clients receive,
APROFAM has developed an “informed choice” brochure to be provided to sterilization



                                                                                        19
                                                                            APPENDIX II

patients at the time of registration to undergo the procedure which should provide
sufficient time prior to the operation to consider this information. The brochure includes
comprehensible information, including health risks and benefits, on all family planning
methods including sterilization. APROFAM does have standardized protocols to cover
pre- and post-surgery counseling and a quality of care monitoring system regularly
enforced to oversee provider performance. Their Protocol on Counseling for Informed
Choice and Family Planning Services includes the standardized information that
APROFAM providers follow in counseling and providing family planning services,
including sterilization. A Handout for Sterilization Patients has been developed to
provide patients with written information on the procedure to take home with them. The
content of these materials follows U.S and Guatemala family planning requirements and
clinical guidelines. All of these materials have been provided to the RIG and accompany
this memorandum.

USAID/Guatemala has included within its field visits a check to see that sterilization
patients receive these brochures and monitor compliance with these protocols.

Final comments

Given the high degree of collaboration in the conduct of this audit, including considerable
Mission staff time in setting up meetings and providing information, we request our
comments to date be given due consideration in the final report.

We appreciate the commitment of you and your staff to carry out such a comprehensive
audit. Your work has helped us better understand the issues associated with the quota
and bonus system, and it also has helped us develop ways to prevent any possible
future violation of family planning statutory and policy requirements. And importantly it
has helped clear the air regarding the potential impact of the quota and bonus system on
the principles of voluntarism and informed consent. Your work has allowed us to say
with certainty to Members of Congress and their staff, as well as to the American public,
that these violations of the law did not compromise those principles.




                                                                                        20
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
            www.usaid.gov/oig
